                                            Attachment




The presentation summarizing PBGC’s vulnerability
 assessment contains confidential and proprietary
       information and has been redacted.
If you want to report or discuss confidentially any instance of misconduct,
   fraud, waste, abuse, or mismanagement, please contact the Office of
                             Inspector General.



                              Telephone:
                   The Inspector General’s HOTLINE
                           1-800-303-9737

          The deaf or hard of hearing, dial FRS (800) 877-8339
           and give the Hotline number to the relay operator.



                                   Web:
               http://oig.pbgc.gov/investigation/details.html



                                Or Write:
                 Pension Benefit Guaranty Corporation
                      Office of Inspector General
                            PO Box 34177
                    Washington, DC 20043-4177
